E

Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. i923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. - - - ·
BAY POINT PROPERTIES, INCORPORATED,
Petitioner,
v.
MISSISSIPPI TRANSPORTATION COMMISSION
and MISSISSIPPI DEPARTMENT OF
TRANSPORTATION; et al.,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
CHARLES S. LAMBERT, JR.
Law Offices of Charles S.
Lambert, Jr., LLC
10537 Kentshire Court,
Suite A
Baton Rouge, LA 70810
Telephone: (225) 367-1073
Chip@grandlawfirm.com

J. DAVID BREEMER
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
Telephone: (916) 419-7111
jbreemer@pacificlegal.org
BRIANT. HODGES
Pacific Legal Foundation
255 South King Street,
Suite 800
Seattle, WA98104
Telephone: (916) 419-7111
bhodges@pacificlegal.org
Counsel for Petitioner

Subscribed and sworn to before me this 19th day ofDecember, 2019.

I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38818

Service List
Bay Point Properties, Inc. v. Mississippi Transportation Commission, et al.

Counsel for Respondents Mississippi Transportation Commission, et al.:
Wilson D. Minor
Special Assistant Attorney General
Office of the Attorney General
for the State of Mississippi
550 High Street, Suite 1200
Walter Sillers Building
Jackson, MS 39201
Telephone: (601) 359-4072
Email: wmino@ago.state.ms.us
Christopher M. Howdeshell
Pittman Howdeshell, PLLC
140 Mayfair Road, Suite 400 (39402)
Post Office Drawer 17138
Hattiesburg, MS 39404-7138
Telephone: (601) 264-3314
Email: chris@pittmanlawfirm.net

